                                                EMPLOYMENT AND
                                                TRAINING
                                                ADMINISTRATION

Office of Inspector General—Office of Audit






                                                GRANT TO THE INTERNATIONAL ASSOCIATION OF
                                                NANOTECHNOLOGY




                                                 This audit was performed by WithumSmith+Brown PC, CPA’s, under contract to the
                                                 Office of Inspector General, and by acceptance, it becomes a report of the Office of
                                                 Inspector General.



                                                                        _____________________________
                                                                        Assistant Inspector General for Audit



                                                                               Date Issued:           September 12, 2011
                                                                            Report Number:              02-11-203-03-390
U.S. Department of Labor
Office of Inspector General
Office of Audit                                            September 2011

                                                           GRANT TO THE INTERNATIONAL
BRIEFLY…                                                   ASSOCIATION OF NANOTECHNOLOGY
Highlights of Report Number 02-11-203-03-390, to the
Assistant Secretary for Employment and Training.           WHAT OIG FOUND
                                                           IANANO reported $1.5 million in grant expenses and
WHY READ THE REPORT                                        that it trained 328 participants. However, financial
The Office of Inspector General (OIG) audited a grant      transactions and program activities did not comply
awarded by DOL’s Employment and Training                   with the grant agreement and Federal cost principles,
Administration (ETA) under the authority of the High       and were not accurately reported to ETA. Moreover,
Growth Job Training Initiative (HGJTI) to the              the grant lacked clarity regarding the relationship
International Association of Nanotechnology                between the grantee and training provider, and the
(IANANO), a 501(c)(3) non-profit organization located      association between cost categories and deliverables,
in California. HGJTI was a strategic effort to prepare     that led to difficulties in monitoring grant performance.
workers to take advantage of new and increasing job
opportunities in high growth, high demand, and             IANANO charged personnel costs totaling $896,066
economically vital sectors of the American economy.        that were unsupported, reported outcome measures
The grant was for $1.5 million for the period              that were misleading, and required grant deliverables
November 1, 2006, through October 31, 2009.                were not developed or provided, were incomplete, or
IANANO was to implement an innovative solution to          were otherwise inadequate. Moreover, program
address industry-identified challenges by developing       income of $938,685 was not reported, the approved
nanotechnology coursework to meet the needs of             apprenticeship program was not established, and it
multiple populations for potential career ladder growth.   was not clear if $2.6 million of leveraged resources
The courses were to target the following four key          was obtained.
segments of the nanotechnology market: (1)
Executive and Mid-Level Manager Business Re-               WHAT OIG RECOMMENDED
engineering Training; 2) Training the Trainers from the    We recommend the Assistant Secretary for
industry; 3) Thirteen-week Nanotechnology                  Employment and Training recover questioned costs of
Technician Certificate Program; and 4) One-Year            $1.5 million; ensure that first time grantees have
Nanotechnology Technician Pre-Apprenticeship.              systems in place to provide grant products and
                                                           services; and ensure grants are clear in regard to
WHY OIG CONDUCTED THE AUDIT                                entities providing services and cost category
In response to a request from ETA, OIG conducted           associated with deliverables.
the audit to answer the following questions:
                                                           IANANO disagreed with our audit findings. However,
1. 	 Were financial transactions and program activities    IANANO’s responses were not sufficiently supported
     in accordance with the grant agreement and            to change the Findings and Recommendations.
     Federal cost principles?
                                                           ETA responded that it will follow its standard audit
2. 	 Was information the grantee reported to ETA           resolution procedures for disallowing and recovering
     accurate?                                             questioned costs and indicated that it will review its
                                                           procedures regarding new grantees and its grant
3. 	 Were grant terms for expenditures and                 award and budget process, and will make changes
     deliverables clearly defined?                         where appropriate and feasible.

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2011/02-11-
203-03-390.pdf
                                                                          Prepared by WithumSmith+Brown, P.C.
                                                     for the U.S. Department of Labor – Office of Inspector General


Table of Contents 

Independent Auditors’ Report...................................................................................... 1
 


Results in Brief .............................................................................................................. 2
 


Objective 1 —  Were financial transactions and program activities in 

               compliance with the grant agreement and Federal cost 

               principles? ............................................................................................ 3
 


          IANANO did not demonstrate it expended grant funds to provide key 

          services and products to produce career ladder growth. ...................................... 3
 


Finding 1 — Unsupported Personnel Costs of $896,066 ................................................ 4
 


Finding 2 — Reported results and outcome measures were misleading, and 

            required grant deliverables were not developed or provided, were 

            incomplete, or were inadequate. ................................................................. 6
 


Objective 2 —  Was information the grantee reported to ETA accurate? ............... 11
 


          Reported information to ETA was incomplete and misleading. .......................... 11
 


Finding 3 — Reported Information to ETA Was Not Accurate....................................... 11
 


Objective 3 — Were grant terms for expenditures and deliverables clearly


              defined?............................................................................................... 15
 


          ETA encountered difficulties in monitoring grant performance because of 

          the grant lack of clarity in certain aspects........................................................... 15
 


Finding 4 — Grant terms for expenditures and deliverables were not always 

            clearly defined. .......................................................................................... 15
 


Recommendations ...................................................................................................... 17
 


Appendix A Background................................................................................................ 21
 

Appendix B Objectives, Scope, Methodology, and Criteria ........................................... 23
 

Appendix C Acronyms................................................................................................... 25
 

Appendix D IANANO Response.................................................................................... 27
 

Appendix E ETA Response........................................................................................... 41
 





                                                                                                          Grant to IANANO
                                                                                              Report No. 02-11-203-03-390
                              Prepared by WithumSmith+Brown, P.C.
         for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                                     Grant to IANANO
                                         Report No. 02-11-203-03-390
                                                                                                          Prepared by WithumSmith+Brown, P.C.
                                                                                     for the U.S. Department of Labor – Office of Inspector General


WithumSmith+Brown
A Professional Corporation
Certified Public Accountants and Consultants


8403 Colesville Road, Suite 340
Silver Spring, Maryland 20910 USA
301.585.7990 . fax 301.585.7975                                                             Independent Auditors’ Report
www.withum.com
Additional Offices in New Jersey
New York and Pennsylvania                                   September 12, 2011
                                                            Independent Auditors’ Report

                                                            Ms. Jane Oates
                                                            Assistant Secretary for Employment and Training
                                                            U.S. Department of Labor
                                                            200 Constitution Avenue, NW
                                                            Washington, D.C. 20210

                                                            In response to a request from the Employment and Training
                                                            Administration (ETA) for an audit of its grant with the
                                                            International Association of Nanotechnology (IANANO), the
                                                            Department of Labor (DOL) Office of Inspector General (OIG),
                                                            entered into a contract with WithumSmith+Brown (WS+B), PC,
                                                            to conduct an audit of IANANO’s $1.5 million High Growth Job
                                                            Training Initiative (HGJTI) grant (Grant Number HG-15852-07-
                                                            60-A-6). The grant was awarded for the period of
                                                            November 1, 2006, through October 31, 2009.

                                                            HGJTI was a strategic effort to prepare workers to take
                                                            advantage of new and increasing job opportunities in high
                                                            growth, high demand, and economically vital sectors of the
                                                            American economy. One of the sectors was Advanced
                                                            Manufacturing, in which innovative strategies were needed to
                                                            compete in the global marketplace. Under the grant, IANANO
                                                            was to implement an innovative solution to address industry
                                                            identified challenges by developing nanotechnology coursework
                                                            to meet the needs of multiple populations for potential career
                                                            ladder growth. The courses were to target the following four key
                                                            needs of the nanotechnology labor market: (1) Executive and
                                                            Mid-Level Manager Business-Reengineering Training; (2)
                                                            Training the Trainers from the industry; (3) Nanotechnology
                                                            Technician Certification (a thirteen-week program); and (4)
                                                            One-Year Nanotechnology Technician Pre-Apprenticeship.

                                                            Our audit objectives were to determine if (1) financial
                                                            transactions and program activities were in accordance with the
                                                            grant agreement and Federal cost principles; (2) information

A member of HLB International. A world-wide organization of accounting firms and business advisers.

                                                                                                                                 Grant to IANANO
                                                                                                  1                  Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General

reported by the grantee to ETA was accurate; and (3) grant terms for expenditures and
deliverables were clearly defined. The audit included a review of IANANO’s policies and
procedures, grant proposal, grant records, and financial and programmatic reports.
Interviews of IANANO staff, grant participants and ETA’s National and Regional
employees were also conducted. Audit work was performed at IANANO’s Office in
Fremont, Calif.; ETA Headquarters in Washington, D.C.; and ETA’s Region 10 Office in
San Francisco, CA.

WS+B conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF
Results in Brief
IANANO reported $1.5 million in grant expenses and that it trained 328 participants.
However, financial transactions and program activities did not comply with the grant
agreement and Federal cost principles, and were not accurately reported to ETA.
Moreover, the grant lacked clarity regarding the relationship between the grantee and
training provider, and the association between cost categories and deliverables, that led
to difficulties in monitoring grant performance. Although IANANO did provide some
services to participants, due to program performance and financial accountability
deficiencies, IANANO could not demonstrate it provided $2,438,685 worth of benefit to
ETA ($1.5 million of grant funds and $938,685 of program income which should have
been committed to the project). Therefore, the entire grant of $1.5 million is questioned.

Financial transactions and program activities were not in compliance with the grant
agreement and Federal cost principles. Specifically, $896,066 of personnel costs
charged to the grant were unsupported; reported outcome measures were misleading;
and required grant deliverables were not developed or provided, were incomplete, or
were otherwise inadequate. Moreover, program income of $938,685 was not reported,
the apprenticeship program was not established, and it was not clear if $2.6 million of
leveraged resources was obtained. This occurred because IANANO misrepresented
that it had systems in place to ensure proper planning, management, and completion of
the project described in the grant agreement.

We recommend the Assistant Secretary for Employment and Training recover
questioned costs of $1.5 million, ensure first time grantees have systems in place to
provide grant products and services, and ensure grants are clear in regard to entities
providing services and cost category associated with deliverables.




                                                                                 Grant to IANANO
                                             2                       Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General

IANANO’S RESPONSE

In response to draft findings 1-3, IANANO officials disagreed with the audit findings.
IANANO’s response, exclusive of the attachments to its response, is included in its
entirety as Appendix D. The complete response, including the attachments, has been
transmitted to ETA.

EMPLOYMENT AND TRAINING ADMINISTRATION RESPONSE

In response to our draft report, the Assistant Secretary for Employment and Training
agreed to follow their standard audit resolution procedures for disallowing and
recovering questioned costs. ETA indicated it will review its initial technical assistance
and training efforts with new grantees and adjust them as appropriate; however, ETA
cautioned that it is not feasible for ETA to determine that all grantees have all the
systems they need prior to grant award. ETA also indicated it will review the current
grant award and performance processes, including the need for clear budget
justification documents, and will enhance current guidance and provide additional
training and technical assistance. The Assistant Secretary’s response is included in its
entirety as Appendix E.

AUDITORS’ CONCLUSION

Our analysis of IANANO’s response and additional documentation did not substantively
change our Findings and Recommendations. For the reasons stated in Results and
Findings, we disagreed with IANANO’s analysis offered in response to our Findings,
and IANANO did not provide supporting evidence of many of its statements and
assertions.

RESULTS AND FINDINGS

Objective 1 — Were financial transactions and program activities in compliance
              with the grant agreement and Federal cost principles?

       IANANO did not demonstrate it expended grant funds to provide key services
       and products to produce career ladder growth.

IANANO reported $1.5 million in grant expenses and claimed it trained 328 participants.
However, financial transactions and program activities did not comply with the grant
agreement and Federal cost principles. Specifically, 1) $896,066 of personnel costs
charged to the grant were unsupported, and 2) reported outcome measures were
misleading, and required grant deliverables were not adequate. This occurred because
IANANO misrepresented that it had systems in place to ensure proper planning,
management, and completion of the project described in the grant agreement. As a
result, IANANO did not provide the services and deliverables specified in the grant to
meet the needs of the participants for potential career ladder growth.



                                                                                 Grant to IANANO
                                             3                       Report No. 02-11-203-03-390
                                                           Prepared by WithumSmith+Brown, P.C.
                                      for the U.S. Department of Labor – Office of Inspector General

Finding 1 — Unsupported Personnel Costs of $896,066

IANANO reported expenditures of $1.5 million to implement an innovative solution to
address industry identified challenges by developing nanotechnology coursework to
meet the needs of multiple populations for potential career ladder growth. IANANO’s
general ledger contained $896,066 in personnel costs ($772,363 of salaries and
$123,703 of fringe benefits). However, the timekeeping system was not sufficiently
reliable to verify the amount of time actually spent by employees working on the grant,
and IANANO employed family members of the Executive Director in positions that were
primarily overhead. As a result, the $896,066 in personnel cost is questioned.

2 Code of Federal Regulations (CFR) 230 Appendix A 2(g) states:

      To be allowable under an award, costs must meet the following criteria … Be
      adequately documented.

2 CFR 230 Appendix B 8. (m) states:

      Reports reflecting the distribution of activity of each employee must be
      maintained for all staff members . . . whose compensation is charged, in
      whole or in part, directly to awards. . . . The reports must reflect an after the
      fact determination of the actual activity of each employee. . . . The reports
      must be signed by the individual employee or by a responsible supervisory
      official having firsthand knowledge of the activities performed by the
      employee . . .

The grant award, signed by the Executive Director, states:

      I certify that the applicant: . . . 1) Has the . . . institutional managerial and
      financial capability . . . to ensure proper planning, management and
      completion of the project described in this application. . . . 2) . . . Will
      establish a proper accounting system in accordance with generally
      accepted accounting standards or agency directives. 3) Will establish
      safeguards to prohibit employees from using their positions for a purpose
      that constitutes or presents the appearance of personal or organizational
      conflict of interest, or personal gain.

Of the $772,363 of salaries incurred on the DOL grant, $479,571 (almost one-third of
the $1.5 million grant) relates to salaries paid to the Executive Director ($263,381), his
wife ($144,166), son ($61,864), and nephew ($10,160). The Executive Director hired his
wife as Operations Manager, his son as the Management Information Systems Manager
and Program Assistant, and his nephew as Program Assistant/IT Support Specialist.
The costs related to these family members were primarily administrative costs (e.g.,
accounting, information technology).




                                                                                  Grant to IANANO
                                              4                       Report No. 02-11-203-03-390
                                                         Prepared by WithumSmith+Brown, P.C.
                                    for the U.S. Department of Labor – Office of Inspector General

In addition, the Executive Director and his wife owned and operated at least six
companies in addition to IANANO, including the California Institute of Nanotechnology
(CINT), Cleantech Institute, Neurobiomed, Inc., Workforce Institute of America, Home
Again USA, Inc., and Amptran Corporation, out of the same physical location as
IANANO. The only timesheets maintained, which account for all of their time, were for
IANANO. IANANO did not provide records to support the allocation of time to the other
companies. Budget modification no. 6 submitted by IANANO described the percentages
of time that each employee would be devoting to the grant, which typically was less than
100 percent of their time. However, the timesheets we observed, with few exceptions,
had only DOL categories that employees could charge time to, creating another
inconsistency in the timekeeping system. Moreover, the Executive Director also
received wages from CINT totaling $45,000 during the grant period. Furthermore, the
Executive Director and his wife billed CINT for time spent as management consultants
totaling $132,500 during the grant period. Therefore, the Executive Director and his wife
earned a total of $177,500 from CINT while also working at IANANO. As a result, the
Executive Director and his wife received salaries totaling $585,047 from both IANANO
and CINT during the grant period.

Furthermore, the timekeeping system used by IANANO was not reliable as observed
practices did not always adhere to IANANO internal policies. Review of 220 timesheets
revealed 22 timesheets (10 percent) either contained errors and/or had been
manipulated after they were originally signed. For example, timesheets were submitted
and approved for the 1st through the 15th of a month, then another timesheet was
submitted and approved for the entire month, with a different distribution of the hours
originally submitted. Three timesheets recorded 8 hours to DOL, and on the same day,
8 hours to vacation or sick time. These types of errors and manipulations we observed
were consistent with the allegations of time mischarging described to us by a former
employee, and with allegations we reviewed from former employees and consultants.
For example, one former employee indicated he was instructed by the Executive
Director’s wife to change his timesheets to reflect more DOL hours than he actually
worked. IANANO officials also explained it was a standard practice for IANANO
management to complete and sign final timesheets for employees who no longer
worked for IANANO.

The IANANO Timekeeping policy states “if corrections or modifications are made to the
time record, both the employee and HR Director or Operations Director . . . must
verify the accuracy of the changes by initialing the time record” [emphasis added].
Furthermore, the policy states “Tampering, altering, or falsifying time records or
recording time on another employees’ timesheet is not allowed and may result in
disciplinary action, up to and including suspension/termination. Under no
circumstances, is an employee allowed to record time for another employee.”

Overall we concluded that IANANO neglected to follow its own timekeeping internal
controls, much less the controls required under Federal grants management
regulations. This resulted in unsupported personnel costs due to unreliable time
records, and contradicts the assurances made by the Executive Director that IANANO


                                                                                Grant to IANANO
                                            5                       Report No. 02-11-203-03-390
                                                                     Prepared by WithumSmith+Brown, P.C.
                                                for the U.S. Department of Labor – Office of Inspector General

has managerial capability and proper accounting systems. Because the entire
timekeeping system was unreliable and not in compliance with Federal requirements,
the personnel costs are unsupported and all personnel costs are questioned.

Finding 2 — Reported results and outcome measures were misleading, and
            required grant deliverables were not developed or provided, were
            incomplete, or were inadequate.

IANANO reported grant outcome performance measures such as the number of
participants trained and percentage of participants that found or retained employment
as a result of the training. However, IANANO reported misleading employment
outcomes, and the required grant deliverables provided were not adequate. This
occurred because IANANO inflated the impact training had on participants’ ability to
secure employment in the nanotechnology field, and incorrectly believed grant
deliverables produced were satisfactory. As a result, IANANO claimed credit for results
it did not achieve.

Reported Outcomes

The grant required the following outcomes to be reported:

    		 Business Re-engineering Training – the number of participants entering and
        completing the course, certificates awarded, and promotions obtained,
        organizational changes, and average 6-month income increased.
    		 Training the Trainers – the number of participants entering the program, certified,
        professional development hours completed, institutions adopting IANANO’s
        curriculum, number of classes and number of students trained using IANANO’s
        curriculum.
    		 Certified Nanotech and Cleantech Professional (CNCP) – number of participants
        entering and completing the program, participants receiving an internship,
        participants employed at a nanotechnology firm, participants employed after 6
        months, and average earnings over a 6-month period.
    		 Certified Nanotech Technicians Pre-Apprenticeship Training Program – The
        measures used for recruitment and completion of the federally-approved
        apprenticeship program will be adopted.

IANANO’s final report claimed 3281 participants completed nanotechnology training
including Business Re-engineering (111), Train-the-Trainers (80), CNCP (122), and
Apprenticeship Training Program (15) programs.

Regarding grant outcomes, IANANO reported that the employment rates of the
Business Re-engineering participants exceeded 80 percent, and more than 85 percent
of the Train-the-Trainers participants retained or found new employment within the
scope of the training programs. However, these statistics are misleading and incomplete
1
 During our audit fieldwork, IANANO revised the number of pre-apprentices trained to 14, resulting in a total of 327
participants claimed.

                                                                                                 Grant to IANANO
                                                          6                          Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General

because some of the key outcomes required to be reported, such as promotions
obtained and number of institutions adopting the IANANO’s curriculum, were not
tracked and reported.

For the CNCP program, the grant required IANANO to track the number of participants
employed in a nanotechnology firm at the conclusion of the training, with a targeted
placement rate of 90 percent in the nanotechnology industry. IANANO reported that 46
CNCP participants found employment; however, the relationship of the CNCP training to
the types of jobs found by its participants is unknown, as IANANO was unable to
successfully track this information. As a result, the employment rates reported by
IANANO reflecting actual employment as an outcome of the training received was
unsupported.

The Executive Director disagreed with this finding and responded that the actual
outcomes exceeded the projected outcomes. The Executive Director stated that most of
the participants retained or found new employment within the scope of the training, but
that the employment rates for CNCP graduates were lower than what was hoped for
due to the recession.

We disagree with the Executive Director’s assertions, since he did not provide
documentation to support his assertions. Therefore, our finding remains unchanged.

Grant Deliverables

IANANO did not produce grant deliverables required in the Statement of Work (SOW)
including the course curriculum, training certificate, and online distance learning
program. The HGJTI grants were awarded not solely to train a certain number of
participants, but to invest in demonstration projects that would model the power of
partnerships at the national level and help the workforce system build their capacity to
respond to employers’ workforce needs.

      Course Curricula Was Incomplete

      IANANO’s Executive Director provided draft curricula to ETA. However, as
      provided, the curricula were incomplete (did not include the Certified Nanotech
      Technicians Apprenticeship Curriculum/Course Materials), and according to ETA
      did not meet ETA’s requirements for dissemination. The Executive Director
      promised to deliver the final curricula to ETA but this was never done. ETA
      deferred pursuing this issue pending the results of our audit. As a result, IANANO
      did not develop nanotechnology coursework to meet the needs of multiple
      populations for potential career ladder growth.

      The SOW required the following course materials to be developed under the
      grant:

             Nanotech Business Re-engineering Curriculum/Course Materials


                                                                                 Grant to IANANO
                                             7                       Report No. 02-11-203-03-390
                                                   Prepared by WithumSmith+Brown, P.C.
                              for the U.S. Department of Labor – Office of Inspector General

      Nanotech Train the Trainers Curriculum/Course Materials
      CNCP Curriculum/Course Materials
      Certified Nanotech Technicians Apprenticeship Curriculum/Course
       Materials

The SOW stated that the curricula were to be designed to be a replicable solution
that would enable expanding these training programs across a larger geographic
area.

IANANO reported that a copy of the compact disc (CD) containing the curricula
was given to the ETA on October 12, 2009. It also reported it planned to submit
updated curricula products to ETA by May 15, 2010. However, an updated
version was not provided, and IANANO Executive Director stated that the original
CD provided served as the final curricula.

One of the critical elements of the HGJTI grants defined in the Solicitation for
Grant Agreement (SGA) was the replication of successful models for broad
distribution. The SGA states:

   HGJTI grantees are expected to develop the learning and achievement
   that result from their projects into solution models that can be shared
   with and implemented by the workforce investment system, industry
   leaders, and education and training community. . . . By supporting
   replicable proposals that can be implemented in multiple areas and
   industries, ETA is able to maximize the investment by expanding the
   grant’s impact beyond the initial grant site and helping additional
   workers in other areas and industries.

ETA reviewed the provided curricula to determine suitability for dissemination to
the public and to other stakeholders and deemed the curricula unsuitable. ETA
officials stated the Certified Nanotech Technicians Apprenticeship
Curriculum/Course Material was not included on the CD provided. ETA didn’t
disseminate the curricula as it believed that sharing this program with job seekers
would mislead them about its substance and value.

The curricula/course materials provided primarily consisted of copies of
presentation slides. For example, Business Re-engineering consisted of seven
presentations, an outline, and a project proposal. The slides present, in bullet
format, presentation highlights. They do not present detailed course content. For
Train-the-Trainers, the materials did not include descriptions of the competencies
addressed, the knowledge, skills and abilities that should result, the learning
objectives or methods of delivery, and the method of measurement of attainment
of the competencies.

The Executive Director disagreed with this finding and stated a local community
college district was able to follow and replicate the training programs. However,

                                                                          Grant to IANANO
                                      8                       Report No. 02-11-203-03-390
                                                   Prepared by WithumSmith+Brown, P.C.
                              for the U.S. Department of Labor – Office of Inspector General

he did not provide any evidence to support his claims that a local community
college was able to follow and replicate the program as provided. Therefore, our
finding remains unchanged.

Industry-Recognized Training Certificate Not Provided

At the completion of the CNCP training, IANANO provided participants with
certificates. However, IANANO did not demonstrate the CNCP training course
was an industry-recognized course that indicated a level of mastery and
competence as required by the grant agreement. This occurred because the
IANANO Executive Director overstated IANANO’s affiliations with third-parties
and IANANO did not have the managerial capacity to properly establish a
certificate program. As a result, IANANO misled ETA and participants as to the
substance and value of the CNCP training.

The SGA states that all grants funded must include direct provision of training to
individual participants. It also states that the training must:

   (R)esult in an industry-recognized certificate, degree, or license that
   indicates a level of mastery and competence in a given field or
   function.

The certificate awarded to participants was not recognized by industry
stakeholders other than IANANO and its related parties and affiliates. It was not
based on defined knowledge and skill requirements and was not performance
based. In addition, the entities that IANANO stated they consulted with did not
include nanotechnology related professional organizations, such as the
International Council on Nanotechnology or the National Nanotechnology
Initiative.

Participants stated the certificates were not viable to obtain employment within
the nanotechnology industry. Three participants we interviewed stated the
certificate is worthless, not recognized by companies they talked to, and/or did
not provide any benefit when seeking employment. The certificate itself is labeled
simply a “Certificate of Completion.”

The Executive Director disagreed with this finding and provided a response with
several statements about CNCP training recognition. However, the Executive
Director did not provide documentation that demonstrated the curriculum was
approved by industry partners, or would provide a level of mastery and
competence in the nanotechnology field. Therefore, the finding remains
unchanged.




                                                                          Grant to IANANO
                                      9                       Report No. 02-11-203-03-390
                                                  Prepared by WithumSmith+Brown, P.C.
                             for the U.S. Department of Labor – Office of Inspector General



Online Distance Learning Program Not Developed

For training purposes, IANANO incorporated a web portal to facilitate homework
submissions and some instructors used an online meeting application to conduct
some presentations. However, an online distance learning program (E-learning)
was not developed and implemented to link participants to prospective employers
in nanotechnology and provide access to the course work 24/7.

The SOW states:

      CINT will develop a web portal serving as an on-line
      communication network to link job seekers and prospective
      employers in nanotechnology. In supplement to the
      classroom setting training, CINT will develop an on-line
      distance learning program to enable students and trainees
      access to the course work 24/7.

The Executive Director responded he did not agree with this finding. The
Executive Director indicated that IANANO developed and implemented an online
distance-learning program for CNCP and that the system was used to broadcast
training programs and the general sessions of the International Congress of
Nano Bio Clean Tech in 2008. The Executive Director stated online participants
from many states and overseas were not allowed to participate as they were
outside the scope of work of the DOL grant. In addition, IANANO stated it
submitted costs of the online distance learning for reimbursement to DOL in
September 2009, but it was rejected by ETA. Finally, IANANO claimed that ETA
representatives viewed the online learning program in October 2009 but told
IANANO that DOL did not expect to pay the high costs of implementing the
online program and that it was beyond the scope of the program deliverables.

We disagree with the Executive Director’s analysis and conclusions; therefore,
our finding remains unchanged. We note that the classroom training courses
were held from June 2007 to April 2009. However, in a July 2009 submission to
ETA, well after the last training class was held, IANANO states “IANANO will
soon submit a request to purchase an e-learning computer and video camera
system including hardware and software to enable the e-learning program.”
Additionally, in an October 21, 2009, letter to ETA, 10 days before the grant
expiration, IANANO states “we have developed and [are] now implementing the
state of the art web-based webinar with video conference live in real time to
enable the e-learning . . .” These statements contradict the Executive Director’s
assertion that the online distance learning program was being used in the CNCP
program. Finally, broadcasting sessions of the International Congress and Nano
Bio Clean Tech events, which were not part of the DOL grant, are more of a
marketing activity for the organization, rather than a training program for
participants.


                                                                         Grant to IANANO
                                     10                      Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General




Objective 2 — Was information the grantee reported to ETA accurate?

      Reported information to ETA was incomplete and misleading.

Finding 3 — Reported Information to ETA Was Not Accurate

IANANO submitted the final financial and programmatic reports to ETA outlining grant
expenditures and outcomes. However, IANANO did not accurately report the
information to ETA. Specifically, IANANO did not 1) report $938,685 of program income;
2) establish an apprenticeship program; or 3) support $2.6 million of proposed
leveraged resources. This occurred because IANANO did not believe it had to report
income collected by CINT and misrepresented its partnerships. As a result, IANANO
cannot support it provided additional allowable grant activities or assisted in the training
of participants totaling $938,685. Furthermore, apprenticeship participants did not gain
training opportunities with nanotechnology companies to increase their employability in
the nanotechnology field.

Unreported Program Income of $938,685

IANANO did not report program income of $938,685. Program income included
$425,394 for two training contracts, $292,252 for event management activities, and
$221,039 for CNCP training courses. This occurred because IANANO did not believe it
had to report income collected by CINT for the training of IANANO’s participants. A total
of $1.5 million of Federal funds was reported as expended, without performing $938,685
in additional services.

29 CFR Part 95 Subsection 24(a) states:

       Program income earned during the project period shall be retained by the
       recipient and added to funds committed to the project by DOL and
       recipient, and used to further eligible project or program objectives. The
       awardee is allowed to deduct costs incidental to generating program
       income to arrive at net program income.

CINT also had contracts with two institutions to train Business Re-engineering and
Train-the-Trainers (BE/TT) participants. The participants trained under these two
contracts were included as participants of the grant program reported to ETA. CINT
recorded, but did not report program income of $425,394 for these two contracts.

In addition, IANANO held various conferences, lunches and other events for those in
the nanotechnology and clean technology fields and received $292,252 in income
related to these events. A significant portion of IANANO’s time and resources were
spent on these events. IANANO allocated employee wages for time spent on event
management activities to the DOL grant.


                                                                                 Grant to IANANO
                                             11                      Report No. 02-11-203-03-390
                                                         Prepared by WithumSmith+Brown, P.C.
                                    for the U.S. Department of Labor – Office of Inspector General


Furthermore, review of financial records provided by IANANO officials revealed
additional income generated from its HGJTI grant. For example, IANANO’s training arm,
CINT, charged each participant $3,995 to take the CNCP training course. Participants
had to sign a promissory note and make monthly payments with interest. CINT’s
general ledger shows a total of $221,039 of CNCP income received; however, this was
not reported on the final report submitted to ETA. Charging CNCP student fees also
was not part of the final approved grant SOW or budget.

ETA noted IANANO did not track, report, and spend program income on allowable grant
activities in its March 31, 2009, Onsite Monitoring Report, and issued four specific
corrective actions needed for the grantee to comply with program income requirements.
The grantee had not implemented any of the four corrective actions as of the date of our
fieldwork.

The Executive Director disagreed with the finding and responded that program income
is zero because $954,158 of costs were required to generate the $938,685 of program
income, and therefore there was no net income. However, we disagree with the amount
of the offsetting costs claimed by the Executive Director based on the following:

   		 The general ledgers of the two organizations only have a total of $865,740 of
       costs recorded to these three activities, including $274,990 for BE/TT, $302,690
       for CNCP, and $288,060 for Event Management. This is $88,418 less than the
       amount of costs claimed by the Executive Director.

   		 CINT’s general ledger shows that even when the costs are taken into account,
       the net income for the BE/TT program totaled $149,604.

   		 Review of CINT’s general ledger revealed costs indicated by the Executive
       Director as offsetting the program income, including costs that were not
       allowable, reasonable, or allocable to the grant. For example, the following costs
       were included in the costs claimed by the Executive Director as offsetting
       program income:

          o		 As noted previously (Finding 1), the Executive Director and his wife
              earned $177,500 from CINT while at the same time collecting salaries
              from IANANO, which were charged to the DOL grant. The Executive
              Director signed an employment agreement with IANANO stating that
              IANANO employs the Executive Director “to render exclusive and full-time
              service in an executive capacity.” Therefore, the Executive Director’s
              compensation working for the for-profit organization, CINT, while also
              working full time and exclusively for IANANO is not reasonable and
              violates the terms of his own employment agreement.




                                                                                Grant to IANANO
                                            12                      Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General

          o		 Legal fees of $24,520 were charged to the CNCP program. Included in
              these legal fees were fees paid to a law firm, which were not an allowable
              cost to the program, involved in litigation against CNCP participants.

          o		 Approximately $62,000 of costs charged to the CNCP training program,
              including shared costs with IANANO, that are outside the period of the
              actual trainings held (June 2008 to April 2009); and therefore, do not
              appear to be in furtherance of the CNCP training.

As a result, our finding remains unchanged.

Pre-Apprenticeship Program Not Established

IANANO reported to ETA that it trained 15 apprentices in the nanotechnology and clean
tech industry. However, IANANO did not establish an approved apprenticeship program
with nanotechnology companies. This occurred because IANANO misrepresented its
ability to gain business partners willing to employ participants. As a result, participants
did not gain exposure to nanotechnology companies, which were to increase their
employability in the nanotechnology field.

The grant SOW stated “IANANO plans to register this program as an approved
Pre-Apprenticeship model with the U.S. Department of Labor, Office of Apprenticeship,
with a subsequent application to the State of California for corresponding approvals.”
The grant also stated “the Pre-Apprentice program will include up to 144 hours of
classroom course work and 1,000 to 2,000 hours apprentice work at the employer
workplace…” for 15 participants.

There were no records indicating IANANO registered this program as an approved
Pre-Apprenticeship model with the U.S. Department of Labor, Office of Apprenticeship
or the State of California. In support of its grant application, the Executive Director
provided six signed letters of support in which individuals agreed to provide
apprenticeship and/or internship opportunities. However, IANANO did not provide
documentation that these partnerships were satisfied. The Executive Director
responded that prospective employers indicated they would require funding from DOL to
cover the extra work that would be required to participate in an apprentice program and
DOL would not provide the funding. However, no support for this claim was provided
and it contradicts the information submitted in the grant application, where several
employers indicated they would provide apprenticeships as part of IANANO’s leveraged
resources.

IANANO reported on its final program report (ETA 9134), dated December 31, 2009, it
“trained 15 apprentices who have an opportunity to work on the job training in the
emerging field of nanotechnology and clean tech industry. This has met the goal of
training 15 apprentices.” However, 13 of the apprentices were placed in two start-up
companies owned or controlled by the IANANO’s Executive Director. The job functions
of the participants did not provide job training in the emerging field of nanotechnology


                                                                                 Grant to IANANO
                                             13                      Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General

and clean tech industry. Instead, participants worked on grant writing activities to gain
additional funds for the Executive Director’s start-up companies.

Five of the apprentices we contacted stated that the apprenticeships were performed
primarily off-site, rather than at the employer workplace. The apprentices were offered
the opportunity to have any balances remaining on their promissory notes reduced or
eliminated if they worked in the apprenticeship program.

During our audit fieldwork, the Executive Director stated that they encountered great
difficulties in convincing employers to hire the apprentices due to the economy and
some CNCP graduates wanted to set up their own consulting firms. He indicated that
while he started an enterprise and several CNCP graduates got involved, he did not
control or manage it. However, five of the apprentices we interviewed believed that the
Executive Director, his wife, and/or his related company, CINT, owned or controlled the
two consulting firms. Additionally, a domain name search of one of the companies
revealed the Executive Director controls the domain, which provides further evidence he
exerts control over the company. The domain of the second firm was registered using a
proxy service designed to hide the identity of the domain owner.

In his response, the Executive Director stated two CNCP graduates started consulting
firms and agreed to accept apprentices as a trial to test the concept of having a start-up
company involved in the apprentice program; and the Executive Director does not own
these companies, but provided guidance and support. However, the Executive Director
did not provide any evidence that the two CNCP graduates own and control the
consulting start-up companies, rather than the Executive Director of IANANO. In fact,
the Executive Director of IANANO represents himself as a Director of one of the
consulting firms in question on a presentation he gave in the name of the consulting
firm, and represents himself as the Chairman of the second consulting firm on a
presentation he gave in the name of the second firm.

Unsupported Leveraged Resources of $2.6 Million

IANANO reported in their final programmatic narrative report dated December 31, 2009,
total leveraged resources of $2,606,170 including $765,486 from Federal sources,
$1,644,165 from non-Federal sources and $196,519 contribution from employees.
However, IANANO could not demonstrate that leveraged resources were obtained. This
occurred because IANANO did not have an adequate system of tracking the leveraged
resources. As a result, IANANO did not provide the full services intended, which in turn,
compromised the $1.5 million that was spent by ETA because it did not benefit from the
full amount of leveraged resources and partnerships, reducing the impact of this $4.1
million initiative.

2 CFR 95.23 requires in-kind contributions to be verifiable from the recipient’s records.
Also, 2 CFR 230 Appendix B 8.(m)(4) states that salaries and wages of employees used
in meeting cost sharing or matching requirements on awards must be supported in the



                                                                                 Grant to IANANO
                                             14                      Report No. 02-11-203-03-390
                                                         Prepared by WithumSmith+Brown, P.C.
                                    for the U.S. Department of Labor – Office of Inspector General

same manner as salaries and wages claimed for reimbursement from awarding
agencies.

The total $2,606,170 of leveraged resources was classified as in-kind contributions from
IANANO employees and third-parties. For $697,787 of this amount, IANANO
management provided a listing of the names, providers, and amounts. However,
management explained the amounts were based on estimated number of hours and an
hourly rate. The hourly rate used was an unsupported estimate developed by the
grantee for different categories of services. For example, a Legal Advisor was assigned
a rate of $400/hour. For $780,000 of this amount, IANANO provided only the name of
an event, the number of speakers, and a total dollar amount. For one item totaling
$471,200, the support consisted of estimates of donated office space ($392,000) and
estimates of time spent for shared landlord employees. For one item totaling $460,665,
no support was provided.

In addition, IANANO claimed $196,519 in leveraged resources related to its employees.
IANANO Executive Director explained this is the difference between what employees
were actually being paid and what they should be paid if they weren’t working for a
non-profit organization. IANANO’s Executive Director claimed ETA told them this cost
could be claimed, but IANANO could not identify the ETA official.

ETA noted in its March 31, 2009, Onsite Monitoring Report that IANANO does not have
in place a system to calculate, document, and track accurately leveraged resources;
and that corrective actions be taken to include developing a tracking system to account
for and support leveraged resources; and appropriate supporting documentation should
be retained. However, IANANO did not implement these recommendations.

The Executive Director disagreed with this finding and provided a response with several
statements about how its calculations for leveraged resources are valid. However, the
Executive Director did not provide sufficient documentation that supported his claims,
and we disagreed with the Executive Director’s analysis and methodology in his
response. Therefore, the finding remains unchanged.

Objective 3 — Were grant terms for expenditures and deliverables clearly
              defined?

     ETA encountered difficulties in monitoring grant performance because of the
     grant lack of clarity in certain aspects.

Finding 4 — Grant terms for expenditures and deliverables were not always
            clearly defined.

Generally, the grant terms for expenditures and deliverables were clearly defined.
However, the grant lacked clarity regarding the relationship between IANANO and CINT
and between the budget and program activities. This occurred because ETA accepted



                                                                                Grant to IANANO
                                            15                      Report No. 02-11-203-03-390
                                                          Prepared by WithumSmith+Brown, P.C.
                                     for the U.S. Department of Labor – Office of Inspector General

the proposed SOW and budget information without ensuring it was clear. As a result,
ETA encountered difficulties in monitoring grant performance.

Relationship between IANANO and CINT Was Not Clearly Disclosed

The grant agreement outlined the activities that were expected from the grantee.
However, the relationship between IANANO and CINT was not clearly disclosed. The
SOW described the relationship in the following four ways:

   1. “Under the proposed grant, IANANO will implement . . . by establishing the
      California Institute of Nanotechnology (CINT) . . .;”

   2. “IANANO has established the California Institute of Nanotechnology in June
      2006,”


   3.	 “(IANANO) – as the fiscal agent in the nanotechnology training consortium created
       within this proposal – will serve as the training provider and coordinating
       entity . . .;” and

   4. “(IANANO) is a non-profit organization” and “IANANO has 3 divisions: Event
      Management (Nanotech Congress), Education and Training (California Institute
      of Nanotechnology), and the Publication Division (NanoHerald).” [emphasis
      added]

It is unclear whether CINT was a product of the grant, a preexisting organization, or a
division of IANANO. Review of documents provided by IANANO’s Executive Director
indicated that IANANO and CINT are legally, separate organizations owned and/or
controlled by the IANANO Executive Director and his wife. The Executive Director
stated that CINT was established before the grant was awarded. In addition, review of
the training activities revealed IANANO’s Executive Director charged training cost to the
grant in addition to also getting paid by CINT and charging CINT consulting fees, while
CINT conducted all the training and recorded all the training revenues.

In October 2008, ETA conducted an onsite review. IANANO initially did not allow ETA
access to the CINT records. ETA noted that it was unable to determine the accuracy of
the financial results of the grant without access to CINT records. If ETA had been able
to clarify this relationship prior to the award, ETA may have been in a better position to
provide technical assistance from the outset of the award. Although this may not have
ultimately prevented the problems ETA experienced on this award, ETA may have been
able to take action sooner.




                                                                                 Grant to IANANO
                                             16                      Report No. 02-11-203-03-390
                                                         Prepared by WithumSmith+Brown, P.C.
                                    for the U.S. Department of Labor – Office of Inspector General

Relationship between Budget and Grant Activities Was Not Clearly Identified

The grant provided budgeted cost for each of the required cost categories. The grant
terms included a budget, which provided detail as to how the grantee would spend the
$1.5 million of the award. The grant budget was modified twice, and the original and final
budgets are as follows:

              Table 1: Grant Budget 

              Cost Category      Original Budget              Final Budget 

              Personnel             $     97,500               $     680,293
              Fringe Benefits              9,750                     123,701
              Travel                      10,800                      11,438
              Equipment                   26,400                      16,329
              Supplies                     5,550                      73,391
              Contractual              1,350,000                     163,567
              Other                                                  216,657
              Indirect                                               214,624
              Total                    1,500,000               $ 1,500,000

              Program Income            $        108,500

The grant did not describe how the budgeted cost would be used to provide key products
and services. For example, the original budget narrative did not specify how the
$1,350,000 of contractual funding would be spent to produce key services and products
required by the grant, such as classroom training and curriculum development. Review of
the ETA grant selection process revealed that two of the three panelists who reviewed
IANANO’s application identified the same weakness. In addition, IANANO’s final request
for budget modification reflected a significant shift in use of the grant funds without
providing how reallocation was used for grant purposes.

ETA officials stated they require grantees to use the Federal Standard Form (SF) 424A
for budgets. They explained the SF 424A does not allow for breakouts by project, rather
by standard budget categories used for all grants. ETA said it would need to obtain
Office of Management and Budget (OMB) approval for use of a non-standard grant form
to request grantees to breakout costs by project. However, grantees are required to
provide a budget narrative describing how cost categories were derived. If ETA would
have requested the grantee to provide additional explanation for the budget, ETA may
not have encountered the amount of difficulties in monitoring grant performance. In
addition, ETA may have been able to provide better technical assistance to the grantee.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

1. Recover questioned costs of $1.5 million;

                                                                                Grant to IANANO
                                            17                      Report No. 02-11-203-03-390
                                                         Prepared by WithumSmith+Brown, P.C.
                                    for the U.S. Department of Labor – Office of Inspector General


2. Ensure first time grantees have systems in place to provide grant products and
   services; and

3. Ensure grants are clear in regard to which entities provide services and cost
   categories associated with deliverables.

We appreciate the cooperation and courtesies that ETA and IANANO personnel, former
personnel, and program participants extended to WithumSmith+Brown during this audit.




WithumSmith+Brown P.C.




                                                                                Grant to IANANO
                                            18                      Report No. 02-11-203-03-390
                                    Prepared by WithumSmith+Brown, P.C.
               for the U.S. Department of Labor – Office of Inspector General




Appendices 





                                                           Grant to IANANO
                       19                      Report No. 02-11-203-03-390
                              Prepared by WithumSmith+Brown, P.C.
         for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                                     Grant to IANANO
                 20                      Report No. 02-11-203-03-390
                                                           Prepared by WithumSmith+Brown, P.C.
                                      for the U.S. Department of Labor – Office of Inspector General

                                                                                    Appendix A
Background
Appendix A Background
HGJTI was a strategic effort to prepare workers to take advantage of new and
increasing job opportunities in high growth, high demand, and economically vital sectors
of the American economy. One of the sectors is Advanced Manufacturing, in which
innovative strategies are needed to compete in the global marketplace. The
Employment and Training Administration awarded HGJTI Grant No. HG-15852-07-60-
A-6 to IANANO for a project titled “High Growth Job Training Initiative Grants for the
Advanced Manufacturing Industry” for $1.5 million. The period of performance was from
November 1, 2006, to October 31, 2009.

The purpose of the grant was to address the challenges posed by the manufacturing
revolution driven by nanotechnology, including the lack of acceptable standards for
developing nanotechnology curricula, and the lack of a talent pipeline and defined
career pathways. The grant was intended to support IANANO’s four solutions, including:

    		 an Executive and Mid-Level Manager Business Re-engineering training course to
        provide insight on fundamental applications of nanoscience and nanotechnology;
    		 a Train the Trainers session for those who need advanced levels of technical
        training in nano-fabrication and nano-manufacturing, who will then in turn train
        additional workers in their companies;
     a 13-week CNCP program targeted to dislocated, unemployed, and
        underemployed workers; and
     the development of a Pre-Apprenticeship Program that will assist workers to work
        at nanotech companies while completing their training.

ETA requested the audit because on-site monitoring reviews identified 15 findings of
non-compliance with grant terms and conditions, and a disproportionate number of
complaints of wrong-doing from former employees and others that worked with
IANANO. These issues included:

    		 Continued denial of access to the financial records of CINT, a for-profit arm of the
        grant recipient under which the training of program participants was conducted;
    		 Failure of the grantee to recognize, account for, and report program income,
        despite the fact that it charged participants tuition of approximately $4,000 each
        for training under the grant;
    		 Failure to obtain an audit under the Single Audit Act for the period ending in
        March 2009;
    		 Absence of a comprehensive cost allocation plan to ensure proper allocation of
        costs among the grant and the grantee’s other non-grant activities, and possibly
        inappropriate application of its approved indirect cost rate; and
    		 Inadequate internal controls and financial accounting system.




                                                                                  Grant to IANANO
                                              21                      Report No. 02-11-203-03-390
                              Prepared by WithumSmith+Brown, P.C.
         for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                                     Grant to IANANO
                 22                      Report No. 02-11-203-03-390
                                                         Prepared by WithumSmith+Brown, P.C.
                                    for the U.S. Department of Labor – Office of Inspector General

                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria
Appendix B Objectives, Scope, Methodology, and Criteria
Objectives

The objectives of our audit were to determine:

   1. Were financial transactions and program activities in accordance with the grant
      agreement and Federal cost principles?

   2. Was information the grantee reported to ETA accurate?

   3. Were grant terms for expenditures and deliverables clearly defined?

Scope

Our performance audit covered the period of the award from November 1, 2006, to
October 31, 2009. Because this was a performance audit, our audit was not designed to
provide an opinion on the internal controls of IANANO or to provide an opinion on the
fair presentation of a schedule of award expenditures provided by the awardee.
Accordingly, we provide no such opinions. We did not verify the total number of
participants served.

We conducted onsite visits to IANANO headquarters, the San Francisco ETA Regional
Office, and the ETA National Office.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objectives, we obtained an understanding of the grant’s
objectives by reviewing the grant agreements, solicitation for grant applications, grant
modifications, progress reports, and financial reports, ETA monitoring reports, and other
correspondence and related documents. We identified criteria key to the administration
of the grant in the grant agreements and reviewed applicable IANANO policies and
procedures. We conducted procedural walkthroughs with IANANO managers to obtain
an understanding of administration and financial procedures for reporting performance
data and charging costs to the DOL Grant. We reviewed documentation supporting the
participant data reported to DOL and documentation supporting expenses charged to
the grant.



                                                                                Grant to IANANO
                                            23                      Report No. 02-11-203-03-390
                                                           Prepared by WithumSmith+Brown, P.C.
                                      for the U.S. Department of Labor – Office of Inspector General

In performing the audit, we evaluated internal controls used by IANANO for reasonable
assurance that the DOL grant was administrated in accordance with Federal and
internal requirements. Our consideration of IANANO’s internal controls for administering
the DOL grant would not necessarily disclose all matters that might be reportable
conditions. Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

We assessed the reliability of performance and financial data. For the performance
data, we obtained an understanding of the systems and methods used to collect and
report participant outcome data. We concluded that data reported to ETA was not
complete and not sufficiently reliable. For the financial data, we assessed the reliability
of the general ledger and the timekeeping system, and determined that this data was
not sufficiently reliable.

We analyzed participant data to determine if there was evidence that participants
actually completed the training reported by IANANO. We also conducted interviews with
15 participants regarding certain aspects of the training programs.

To audit labor costs, we reviewed 100 percent of the timesheets provided to us and also
interviewed two IANANO managers and one former employee. We determined that the
timekeeping system supporting the labor costs charged to the grant was not reliable.
Our audit of indirect costs consisted of obtaining and reviewing IANANO’s approved
indirect cost rate agreement and determining if the approved rates were properly
applied to the correct base.

Our audit did not include transaction testing of individual charges to the grant award.

Criteria

We used the following criteria to accomplish our audit:

      OMB Circular A-122, dated May 10, 2004
      OMB Circular A-110, dated September 30, 1999
      Uniform Administrative Requirements 29 CFR Part 95
      American Competitiveness and Workforce Improvement Act, dated
       October 21, 1998
      HGJTI Grant No. HG-15852-07-60-A-6 terms and conditions, dated
       November 30, 2006, as amended




                                                                                  Grant to IANANO
                                              24                      Report No. 02-11-203-03-390
                                                        Prepared by WithumSmith+Brown, P.C.
                                   for the U.S. Department of Labor – Office of Inspector General

                                                                                Appendix C
Acronyms
Appendix C Acronyms
BE/TT          Business Re-engineering and Train-the-Trainers

CD             Compact Disc

CFR            Code of Federal Regulations

CINT           California Institute of Nanotechnology

CNCP           Certified Nanotech and Cleantech Professional

DOL            Department of Labor

ETA            Employment and Training Administration

HGJTI          High Growth Job Training Initiative

IANANO         International Association of Nanotechnology

OIG            Office of Inspector General

OMB            Office of Management and Budget

SF             Standard Form

SGA            Solicitation for Grant Applications

SOW            Statement of Work

WS+B           WithumSmith+Brown




                                                                               Grant to IANANO
                                           25                      Report No. 02-11-203-03-390
                              Prepared by WithumSmith+Brown, P.C.
         for the U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                                     Grant to IANANO
                 26                      Report No. 02-11-203-03-390
                                                  Prepared by WithumSmith+Brown, P.C.
                             for the U.S. Department of Labor – Office of Inspector General

                                                                           Appendix D
IANANO Response
Appendix D IANANO Response




                                                                         Grant to IANANO
                                     27                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        28                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        29                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        30                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        31                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        32                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        33                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        34                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        35                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        36                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        37                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        38                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        39                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        40                      Report No. 02-11-203-03-390
                                               Prepared by WithumSmith+Brown, P.C.
                          for the U.S. Department of Labor – Office of Inspector General

                                                                         Appendix E
ETA Response
Appendix E ETA Response




                                                                      Grant to IANANO
                                  41                      Report No. 02-11-203-03-390
                     Prepared by WithumSmith+Brown, P.C.
for the U.S. Department of Labor – Office of Inspector General




                                            Grant to IANANO
        42                      Report No. 02-11-203-03-390
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:		      http://www.oig.dol.gov/hotlineform.htm
Email:		       hotline@oig.dol.gov

Telephone:		   1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
